20-7770

Supreme Court of the ffilnited States
In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

On Petition
for
Rehearing
Supreme Court of the United States

PETITION FOR REHEARING FOR
EXTRA ORDINARY WRIT, WRIT OF MANDAMUS

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

JUNE 28, 2021

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOY
(501) 682-2007

QUESTION(S) PRESENTED
BEING Petitioner a Preamble Citizen of the United States not United States of America,
the Posterity. As listed in the Preamble of the Constitution of the United States pursuant
to rule requests a Rehearing because, the Constitution is a Trust or Secret Trust
Expressing Allodial title ownership that includes but not limited to, Petitioners Privileges
& Immunities of Article 4 section 2 of the “Printed Paper” (Constitution) where pursuant
to the Trust instrument, petitioner was denied to implement his Article 4, sec. 2
Constitution of the United States privileges &. Where defendants forced their equitable
interest upon petitioner in that, this fact of law where evidence expressed, shows
evidence that the court is bound to rule in petitioners favor?
1

Does the Constitution of United States express provisions of a Trust?

2
Did the writers of “the Printed Paper” (Constitution) establish that a legatee from
the devisee receive the property bequeathed?
3
Why did the United States - American Indian More writers of the Constitution
create a secret trust with the legatee - United States of America?
4
Does the legislature have authority to ignore the Constitution of the United States,
and write laws that are unconstitutional for state actors to charge a Preamble Citizen of
the United States not the United States of America as listed in the Preamble? The
Constitution of the United States does not delegate to officer Johnson et al, of the West
Memphis Police department to infringe, violate, conspire and deprive petitioner’s
privileges & immunities?
5
Did the United States - American Indian Mores create a testamentary disposition
of property to materialize at their death?
Why is the Preamble of the Constitution established as the “Will” for the
6
posterity - Sakima Iban Salih El Bey et al; where the court is overlooking?

PARTIES TO THE PROCEEDINGS
The following were parties to the proceedings in the WEST MEMPHIS POLICE
DEPARTMENT; Congress of Arkansas:
1. OFFICER Johnson; OFFICER McElroy ("WMPD") instituted an arrest without a
crime committed nor a Constitutional Warrant, and no legal process - probable cause who
entered a jurisdiction they have no authority to enter.
2. CONGRESS OF ARKANSAS Senate and House of Representatives. Who wrote
legislation that is not Constitutional on the National nor State level. Arrested petitioner

2

without jurisdiction to do so where also, the Tenth Circuit holds that a false affidavit for
arrest can underlie a false arrest and malicious prosecution claim under the Fourth
Amendment. Petitioners Writ shows sufficient facts to survive summary judgment, even
against a claim of qualified immunity. [False facts with malice would not support
qualified immunity.] (Sheldon H. Nahmod, Civil Rights and Civil Liberties Litigation:
The Law of Section 1983 (4th ed.), for the Petitioner.) Wilkins v. DeReyes, 528 F.3d 790
(10th Cir. 2008):

RELATED PROCEEDINGS
Supreme Court of the United States from the office of the Clerk Scott S. Harris that on
June 21st 2021 an order was entered denying informa pauperis and the petition for extra
ordinary writ.

TABLE OF CONTENTS
OPINIONS.

6

JURISDICTION

6

CONSTITUTIONAL PROVISIONS INVOLVED

6

STATEMENT

6

REASON FOR GRANTING WRIT

7

I. REHEARING FOR WRIT OF MANDAMUS ON
7
Rehearing
7
A. Petitioner Seeks A Appeal
II. The Supreme Court Order Overlooked “the Printed Paper” (Constitution) is a
7
trust..................................................................................
A. Appellate Jurisdiction is Sought to explain the Secret
Trust................................................................................
B. Evidence the Constitution is a secret Trust................
III. The Preamble is a Will..................................................
A. Summation of Trust....................................................

MEMORANDUM

II

CONCLUSION

\G

3

8
9
9
9

Table of Authorities
1) Article 4, sec. 2 Constitution of the United States
2) Preamble of the Constitution of the United States
3) 65th Congress 1st session Doc. 87 “Constitutional Sources of Laws of War” page 7
clause II.
4) Secret Trust Law A secret trust is a trust which arises when property is left to a
person (the legatee) under a will on the understanding that they will hold the
property as trustee for the benefit of beneficiaries who are not named in the will.

CONSTITUTIONAL PROVISIONS:
Preamble of the Constitution of the United States
Article 4, sec. 2 Constitution of the United States
Article 3,
Article 6, els. 3, 2 “
”
Article 4, sec. 4 “
”
Article 1, sec. 2, 1 through 29 Constitution of Arkansas

Congress of the United States Congressional Globe/ Congressional Record:
37th Congress 2nd Session April 11th, 1862 Page 1643
96th Congress, 1st session House Document No. 96-143 [See pages 48, 49]

Supreme Court of the United States
20-7770

In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

On Petition for a REHEARING ON
Extra Ordinary Writ from the
Supreme Court,

REHEARING FOR EXTRA ORDINARY WRIT,
WRIT OF MANDAMUS

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOV
(501) 682-2007

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

JUNE 28, 2021

5"

OPINIONS BELOW
Supreme Court 2021 has issued an denial order June 21 2021.

JURISDICTION
The Supreme Court of the United States and now the Appeals Court of the United
States, has appellant authority to hear this action, and make a Constitutional rule being
that court is the only court with such authority to act.
CONSTITUTIONAL PROVISION ENVOLVED
Preamble of Constitution, Congressional Notes and Article 4, sec. 2 Constitution of the
United States are the evidence of facts for adjudicating this petition.
STATEMENT
Petitioner will show for rehearing that the Constitution is a “Trust” created for the
posterity exclusively and only - American Indian Mores, the Autochthon who petitioner
is by birth a Choctaw (modem pronunciation). Also the “Trust” from the creation of the
United States of America, allows for foreigners to enter the property “America” to work
out their own soul salvation, to pursue happiness, freedom, with liberty. The intent of
congress was to create a Trust, for posterity who are “Autochthon American “Indian”
Mores” where the United States is only for them. The United States of America is for 1st
“Free White Person’s” then all others. The Free White Persons from the law definition in
Blacks Law 4th Edition Law Dictionary only, explains who they are in relation to the
Tmst. This “Prophecy” of the coming City - United States, as verified scholars:
HERMETICA By Walter Scott; NAG HAMMADI LIBRARY By James Robinson; and
SECRET DESTINY OF AMERICA By Manly P. Hall et al. As a refresher below the
intent of Congress as laid out in 96th Congress, 1st session House Document No. 96-143
et al.
2 Constitutions'.
September 8th 1787 Representative McHenry of Maryland notes
“the printed paper” (the Constitution) was referred to a committee to revise and rearrange.
The revised draft was reported by the Committee of “Stile and arrangement” on
September 12th 1787 and, according to the official Journal, printed copies thereof were
ordered furnished to the members of the convention of the 13 colonies. The 3rd and final
draft of the Constitution was ordered printed by the Convention on September 15th 1787.
Also that day, McHenry wrote in his notes that 500 copies be struck-printed, September
17th 1787 he further noted “members to be provided with printed copies.” These printed
copies were six-page broadsides bearing the imprint of Dunlap & Claypoole, one which,
authenticated by representative James McHenry, has been used as “copy” for the present
reprint. Then it was ordered to be engrossed. The engrossed copy was signed by the
Members in Convention on September 17th 1787. The original and engrossed copy is

6

identical except for the minor interlineations having been made in the engrossed copy to
conform to the original printed text of ‘the paper’ - Constitution of the United States.
2 Declarations ofIndevendence
The only names of the first printed copy of the Declaration of Independence,
which is attached to the original manuscript Journals of Congress as a part of the
official record of proceedings on July 4th 1776, are printed as follows:
“Signed by Order and in Behalf of the Congress, John Hancock, President.
Attest, Charles Thomson, Secretary.”
The manuscript Journal of July 4th 1776 does not contain any other statement in regard to
signing the Declaration at that time or the names of the Members present and agreeing to
its adoption. The official Declaration sent to the state assemblies - 13, and General
Washington for proclamation, by order of Congress - United States in Congress
Assembled, not the United States of America in Congress for it was not set up yet. Where,
likewise printed thereon an authentication only by Hancock and Thomson's names were
written. Their names are signed to the first-original publication of the Declaration, on
July 6th, 1776. As printed in the evening paper the ‘Pennsylvania Evening Post of
Philadelphia which did not include any other signatures. July 19th 1776, Congress
adopted the following resolution: “Resolved, That the Declaration passed on July 4th
1776, be fairly engrossed on parchment with the title and stile of ‘The unanimous
Declaration of the thirteen united States of America’ and that the same, when engrossed,
be signed by every member of Congress.”
The Journal of August 2nd 1776, says: “The declaration of independence
being engrossed and compared at the table was signed by the members.”

REASON(S) FOR GRANTING THE PETITION
I. REHEARING FOR WRIT OF MANDAMUS ON.
Petitioner seeks a rehearing for the interest of the “Will” as petitioner being the Posterity
as expressed in the Preamble, which is the WILL. Because the court overlooked the
congressional intent, and the evidence of congress, a rehearing is sought to show in brief
and succinctly that the climate that has been established by the Democrat Party the
enemies of the United States/Saboteurs (and a few individual Republicans, where
petitioner is not a member of a political party, petitioner for politics sake is a
Constitutionalist). A rehearing is the procedure that is being sought where the Court has
overlooked such Trust evidence that will be shown in the rehearing for extra ordinary
Writ.
A. Petitioner Seeks A Appeal: Because the Court has denied informa pauperis
and the extra ordinary writ, petitioner seeks this appeal to hear the evidence, merits and to
explain that the Constitution is a Trust and the Preamble is the Will.
II. The Supreme Court Order Overlooked “the Printed Paper” (Constitution) is a
trust. In law as the court is completely well aware of is the fact that a document

presented in a court preceding with its title means absolutely nothing. The mere fact that
a document in a court preceding says “Motion To Dismiss” means nothing but only what
the document is doing in the body of the document. So too, is the Constitution in that the
elements listed in the constitution show in the Preamble has elements of a “Will”. In the
Constitution it has elements of a “Trust” and in that is the basis for this rehearing where
further, the Constitution is a “Secret Trust”, this will be explained further. A Trust
cannot be created by a will unless the intention to create a TRUST and the identity of the
beneficiaries and of the TRUST PROPERTY and the purposes of the TRUST can be
ascertained: from the Will itself; from an existing instrument properly incorporated in the
Will by reference or from facts which have significance apart from their effect upon the
disposition of the property devised or bequeathed by the Will i.e. This case the TRUST
was create by the testator called “We, the People” of the United States as explained in
the WILL or PREAMBLE i.e. United States gave property to the United States of
America or Autochthon American “Indian” Mores gave property “AMERICA” to the
“Free White Persons” - United States of America, in the FAMILY reliance upon this
agreement to hold America in TRUST by the devisee or legatee who has been holding
America for who they agreed to hold it from - United States or Autochthon American
“Indian” Mores. This is the “Secret Trust”.
A. Appellate Jurisdiction is Sought to explain the Secret Trust. Being the Autochthon
American “Indian” Mores died “INTESTATE where my ancestors relied on the legatee “Free White Persons” from the agreement that they UNITED STATES OF AMERICA
obtained from such intestacy, acquires this TRUST by intestacy which now becomes a
“Constructive Trust” where the legatee agreed to hold the property from the person they
agreed to hold the trust for, now holds the trust upon a Constructive trust for the United
States whom they agreed to hold it for the next of kin of the United States or Autochthon
American “Indian” More. The testator-United States- We, the People, made a agreement
with the devisee or legatee-United States of America-Free White Persons absolutely who
did not reference a intended trust. Upon the death of the testator-United States-We,the
People, Autochthon American “Indian” More the devisee agreed to hold the property America that includes but limited to Privileges, Immunities. This agreement to hold the
trust was on a constructive trust for the designated beneficiaries= Autochthon American
“Indian” Mores even though its not intended by the will=Preamble. The United States of
America - Free White Persons are not allowed to keep the property bequeathed to them
because this would make them unjustly enriched, which is what happened to petitioner by
defendants. Now, this too is a resulting trust imposed for the benefit of the estate of the
testator. This is the Agreement. It is immaterial if the agreement was made before or
during the writing of the will=Preamble. As Long as it was made before the death of the
testator=We,the People=United States=Autochthon American “Indian” More. It is also
immaterial if the agreement was made between the legatee and testator was in specific
words. Written or oral or was shown by the conduct of the United
States=Testator=Autochthon American “Indian” More.
B. Evidence the Constitution is a Secret Trust. Only that the testator intended to create a
trust and such terms of it are communicated by testator to the devisee and the devisee
does not refuse to hold the property upon the intended trust but by the Free White Persons

silence is sufficient indication of their agreeing to hold the property upon the intended
trust. Herein, the Testator did not identify to the legatee who the beneficiaries are during
his life time is now holding the trust as a constructive trust for the intended beneficiary or
Posterity as listed in the Preamble. The legatee is holding the trust for the estate of the
testator. Petitioner now can and is by this petition being the intended
beneficiary=posterity, that I am enforcing by this court a constructive trust in my favor
because the legatee agreed to hold the property in trust for the person designated in the
instrument=Will and Constitution, delivered to the United States of America=devisee
from the the testator=United States in their lifetime, even though the agreement was made
in secret in a sealed envelope and at that time the Free White Persons were not aware of
the identity of the intended posterity until after the death of the testator=Autochthon
American “Indian” Mores or Sakima Iban Slaih El Bey petitioner.
III. The Preamble is a Will.
Elements of the will or preamble is as such. The testator is “We, the People of the United
States” the beneficiaries is the Posterity listed in the preamble. The property is Justice,
Ensuring, Providing, Promoting, Securing and America the land mass of the 48
families=States. The Trustee=devisee is the United States of America or Free White
Persons who are the mixed Russian, Greek, Italian, French, Spanish of Spain, Iberian, it
does not include or mean Caucasian race. Caucasians=White Persons are the slaves or
Indentured servants who were never released from their indenture. This is evident by 37th
Congress 2nd Session April 11th, 1862 Page 1643 Senator Cradlebaugh on freeing Anglo
Saxons from slavery but it was decided and acted upon to do away with Slavery of
African descent and leave those Anglo Saxons or Caucasians as slaves or indentured
servants.These Caucasians can become Citizens not Citizens of the United States but
Citizens of the United States of America, by action and procedures of law. Free White
Persons who now are entitled to privileges and immunities Article 4, sec. 2 Constitution
because they are the offspring of the Moors from A1 Andalus now Spain. Who are the
sisters and brothers of Autochthon American “Indian” Mores of United States. A Statute
of Wills, from a testamentary disposition of property is a disposition to take effect upon
the death of the Autochthon American “Indian” More making the disposition and as to
which he has substantially entire control until the death. This disposition is testamentary
whether made by the will=Preamble or Constitution which purports to be a will or made
by a transaction inter vivos as by deed, unsealed writing=Constitution or “A Declaration”
(called Declaration of Independence incorrectly). Being the intention of the Testator to
create the trust=Constitution, appears in the will=Preamble as it does, the devisee can be
compelled to hold the property upon a resulting trust for the Estate of the testator=United
States.
A. Summation of Trust. The Constitution is a Trust and the Preamble is a Will.The
Creator of the Trust is the Autochthon American “Indian” More, who are the
Lenabehoking for their Posterity being the people of the United States and the agreed
Trustee is the United States of America or Free White Persons who are the offspring of
the Moors from Europe who are the Mixed Greek, Russian, Italian, French, Spanish of
Spain, as explained in 4th Edition Blacks Law Dictionary. Definition “Free White Person”
that does not include “Caucasian Race”. The Preamble has all the elements of a will:

Creator, Property, Beneficiary, Trustee, and the Constitution is established from the will
that makes the Constitution a Constructive Trust. Petitioner is the posterity or beneficiary
with Privileges & Immunities to not be forced into Equity from defendants. Because the
Road machine is not the property of petitioner, was not driving, and it is registered to
“MOOR FOUNDATION” not petitioner. So for defendants to force him into their equity
jurisdiction does not waive petitioners Article 4, sec. 2 Privileges & Immunities that a
rehearing must be awarded and granted. For the sake of the Trust that this court operates
from.

SUPREME COURT OF THE UNITED STATES
20-7770

In Re
Sakima Iban Salih El Bey
Preamble Citizen of the United States Government
Petitioner
V.
Congress of Arkansas Et. Al.
500 Woodlane St. Suite 320
Little Rock, AR 72201-1090
Defendants

Memorandum
On Rehearing
Petition for a Extra Ordinary Writ

REHEARING
MEMORANDUM
ON PETITION FOR EXTRA ORDINARY WRIT,
WRIT OF MANDAMUS

Leslie Rutledge
Counsel of Record
Catlett Prien Tower Building
323 Center St #200,
Little Rock, AR 72201
OAG@ARKANSASAG.GOV
(501) 682-2007

Sakima Iban Salih El Bey
Nonresident/ Non Domestic
First Class, U.S. Delivery
C/O 1759 Willow Creek Drive
Columbia, South Carolina State
Sakimaiban@gmail.com
(803)320-8952

June 28, 2021

II

!

FOR REGISTRATION JUDITH A. GIBSON
. register of deeds
HECKLENBURG COUNTY, NC
2004 MAY 20 1 1:30 AN
BX: 17225 PG:706-70
____ .09 FEE:$10.00
INSTRUMENT « 2004112543

2004112543

fiefumed to Coslomsi

eaoa»-omcwtogafa»

THE UNITED STATES GOVERNMENT
IN nffiFAMILY OF NATIONS

UnM SWM EracMd XT71

THE UNITS) STATES IN CONGRESS assembled

Unrtlwil Haf)* tie Urttedsu»
19127%* nogAa

THE CONGRESS OFTHE UNITED STATES

1782 TO PRESENT
THE SEAL OFTHE UNITED STATES
A U.S.C.S. 8 41

NOTICE OF A COMMON-LAW NAME’ CHANGE
To AO Necessary Parties; Selah.
I,
A/UvMftrs 9y\i,n __________ AM a Preamble Citizen of the
United States (of America) and a Qualified Free Inhabitant Common Law Citizen of the
Republican Form of State Government protected and guaranteed in and by the
Constitution of the United States of America.
As a Hakhdar Citizen and Resident of the Preamble and Constitutional United States
Government, in the Family of Nations; and in the Truth/Hakh of the Law, I do, without
Fraud, Publicly Proclaim and say:
That the Individual named,
V rv-^rvcLia aAavi'. ^ ^ 5wy,-%\\ shall henceforth be also known as
\ CVNfA
Y.\qo>vn jrAAsBi?!s^and said Assumed name Alteration is in accordance
with:
I.

Common Laws of the United States
A. Const., Art. 4 sections 1 & 2, els. 1
B. 57 Am Jur 2d, NAME, sections 2,16,36 & 64

n.

Common Laws of the Republic State of North Carolina
A. G.S.N.C., Chpt. 4, sec. 4-1
B. In re Mohlman, 26 N.C. App. 220,216 SE 2d 147 (1975)
C. Oppinion of Attom. Gen. To Mr. W.S. Histt, Comm. Of Motor Vehicles, 58
N.C.A.G.4 (1988)

Staled thb /s+ Dev of pfr

Printed Name 5v-> R-.

vv,

I Uo. v,

^3

Plena Probetio
WttntetAutograph
Printed name 'Ry in

\_L9.vtp.A

- _
»._______________

WttneeiAntoarap^^ji^d.
Printed name

/i-\- \

jpd-ef. "frfoy

Natio&al “AD for one

One for air Motto

ii

Eston^omcw«^fl(0«

THE UNITED STATES GOVERNMENT HI

*K)Q of it» VMM Stans
Uncfllda*
tmnTMRaSAct

INITffi FAtflLYOFNAHONS

Ui*ad Statw Enocmd 1777

THE CONGRESS OF THE UNITED STATES

TOE UNITED STATES IN CONGRESS issembted

I 1782 TO PRESENT
THE SEAL OF THE UNITED STATES
4 U.S.C.S. g 41

NOTICE OF CACELLATION

To All Necessary Parties: Selah.
1, F^/vvx

f

/l/?dtP i a 1r\

.^V<kMQ>tt

w\r\^ \>/vY\

Being a Preamble [(a) Pre Entitled, (b) Prior Tengnre Protior Jure and <d) Postlimiraun]
of the United States Government ordained and estabtisbed by “The United States in Congress assembled”,
in the Family of Nations, ami a Qualified, Free inhabitant and Common Law Cttizen-Resideffi of the
Constitutional Republican Form of State Government of the Free Republican UNITED STATES OF
AMERICA GENERAL NATIONAL GOVERNMENT do Publicly Declare, and Proclaim and Record, that I
AM a “Stranger’' to any other citizenship that attempts to (de) minuere my Hakhdar Place of birth or
Principal United States nationality, including the “sut^ect to” another’s jurisdiction, i.e., 13* and 14*
amend Citizemhip of the Administrative Federal and Municipal Agency govemmeras In the United States
of America
I DO hereby Cancel and rescind and make void ab initio any and all Power of Attorney and Jurisdiction of
the Administrative United States Federal Corporation [28 U.S.C. § 3002(15)], 50 Corporational Campaign
Coterie States; and U.S. Citizenship “subject to” the jurisdiction thereof, [Const., 14* amendment § 1, lines
1-3 and 8 U.S.C. § 1401 and 1452] and to any and all contracts agreements and otherwise signed by former
guardians or myself implied or expressed, in law, bad faith or fraud and designed to hide, conceal, deprive
or craftily constructed to rcfdace or assume my legitimate and Constitutional status as a "Native-natural
bora Natioaal CHfacu of the United States" and all Rights, Privileges, Immunities, Power, Authority,
Territory or other Property belonging to the United States” Government a.lca. "The Congress” and the
Posterity, Nation and Representatives thereof , as it also pertains to all Papers and other Documents
including, but not limited to, former birth certificates etc. constructed by Local, State or Federal
Governments or Quasi government agencies, due to tile use of various elements of ignorance, deception or
fraud by said governments to ignore, suppress or deprive me of my rank as the "Posterity of the United
States” and- my HAKH given rights, immunities, privileges and my Hakhdar Aboriginal National
Inheritance.
StAArv

a.lea. !*»'«.»r.'ti

A/dl’iAii c^&uall

Do hereby also cancel and rescind all jurisdiction contrary to die "Supreme Law of the Land”: and any and
all fraudulent or deceptive benefits and/or gratuities of the Federal Corporation United States and the 50
Conterminous States thereof, that is incorporated within the United States of America’s Repiddic Nation
and so written in the Constitution of the United States of America.
I do hereby additionally cancel, rescind and make void any and all forms of “manufactured Diversity” or
“Assignments" that has been improperly or colhisrvely made or joined to invoke the jurisdiction by the

13

Administrative Federal Corporation U.S. and the 50 Partisan-Political Subdivision states [5 U.S.C.S. § 1501 (2)] thereof; not
in aoootdanoe with (a) the M* amendment § 1, sentence 2 of the Constitution, (b) 5 U.S.C.S. § 7425 and (c) 28 U.S.C. §
1359; and die “Dedarations of Rigans” of the ‘'Free Inhabitants” of the 1774 to die present, and the Original Republican
Sovereign Nations/States [5 U.S.C.S. § 1501(1)] of the United States Government, in the Family of Nations aJca. the i
UNITED STATES OF AMERICA.
M
Any Misjoinder:
“Misjoinder of actions b the joining several demands which the Law does not permit to joined, to enforce by one
proceeding several distinct, substantive righto of recovery" [Gould, pLc.4 § 90 Blacks Law Did 4“ Ed., p. 971)
by any district courts (28 U.S.S. § 1359) is illegal, unlawful and improper, as Presumed and/or assumed jurisdiction and
Power of Attorney of the Legal Entity artfully constructed as the “Man ofStraw”.
.Tty*
ii U
. . being a “National” and “Natural bora CHfaen of the United
States of America” and a Qualified Voter”, owrttntplOO per centum rf Beneficial Interest in the Legal Entity artfully
constructed as and formerly known as Frvir\r ust /vlaint-mh $>nx/ei.\\_________ SELAH.
Any and all Maintenance, Common Barratry, Champerty or'other Officious Intermeddling by any Juduciai Officers or other
public Officials is prohibited by Law and legal actions are proper via common law suit
Signed this Jifdsy of ly^hv'uar

v3

Antograpl

Printed Name

Suitima

.SAW FI R

3

Plena Prabatio

Witness Autograph

Printed Name

<^pg.v\V\ -s.—L-o sjre

Witness Autograph

1

Printed Name

National “All for one

m

One for all”

Motto

1

JUDITH A. GIBSON
REGISTER OF DEEDS, MECKLENBURG
COUNTY & COURTS OFFICE BUILDING
720 EAST FOURTH STREET
CHARLOTTE, NC 28202
•a******************************************************************* ************************************ ***************

Filed For Registration:
Book:
Document No.:

05/20/200411:38 AM
RE 17225 Page: 706-709
2004112543
NOTCE

Recorder:

4PGS

GRACE TUCKER

2004112543

$18.00

in .

1

I

l
Ii
2
l

jHoor Jfounijatton

l
l

1

1!

I?

@*e&ident
&ome^’

<9$

165 Bickford Avenue
Memphis, Tennessee State

i
l
l

f7

I
June 28, 2021

1
1
2
2

TO:

I

All It May Concern

I

I
I

RE: Delegated Order of Authority
2

I

f
As President of the “Moor Foundation” this letter is verification that Sakima Iban Salih El Bey is
the “Director” of the aforementioned foundation and has all privileges and immunities associated
with the foundation to handle, manage, and operate the foundation as organized being the
Registered Agent for the Moor Foundation. Signature of my hand below signifies Dr. Bey has

i

authority to conduct all affairs of the Moor Foundation.

P22
1

I
I
Z

!

i

I
l
2

This

2f day of

-sA

2021.

P

I

II
I

2
2

1
Office of ^President Mo
Tomez’ Yabez^Al
!

I
P

I

I2

I
!
g

Ii

PI

I

T"

Tennessee Department
of Revenue
voice
meStamp
ation/Site
lerk/Draw
ash
heck
heck#
red it
red it#
CAuth#
aucher
hange

11'

III

RENEW ONLINE AT
www.tncountyclerk.com

Registration Fees
Registration
26.50
Elec Vhec
.00
Model
Year
Body
Color
Lien
Title No
Make
Credit
.00
JEEP l GCH
2000
LL
W
Lease
.00
Trans
.00
Zone
Driver License
Lease
VIN
Clerk
2.00
1J4G248S9Y C275313
Issuance
2.S0
.00
Vehicle No
County Sticker
City Sticker
Muni Code
Title
.00
p
P
MEM
Lien
.00
Reg
Weight
County
County
Clerk
'
Veh
Use
.00
Sales Tax
.00
9.00
SATax
.00
Wanda Halbert
P
N/A
Shelby
Local Tax
.00
iiri
/
Addtnl Tax
I
Wheel Tax
80.00
ll
Muni Fees
30.00
Owner's Phone Organ Don
.00
8033208952
Postage
.00
(MOOR FOUNDATIOiri
Online Fee
.00
iNSfee
.00
. .165 BiCKFORD AVE APT 4
Total Tax
.00
"WIEMPHISTN 38107
Total Fees
141.00
ID Verify
3707894
20281
14:55:19
WK63/106
2L/162
150.00
.00

E,

'

CERTIFICATE OF VEHICLE REGISTRATION

License No

5H62S2

Class

1000

Expiration Date

Base Yr Trans Code Date of Issue

2006

025

10/07/2020

11/30/2021

03760016

......
in control of such vehicle. Renewals of registration for all vehicles (except permanent registrations) are for twelve (12) months from the current
;piration date. If the current expiration date fells on Saturday, Sunday, or a holiday, the current registration remains valid until the next business day.
iplication instructions
.
. Clean debossed area in the upper right corner of plate. 2. Remove decaf by folding at edge Of decal and separate from registration.
. Rub firmly to apply decal to upper right corner of plate. 4. Keep registration with vehicle. ''

r'

A,

•V
‘

..r-r

?■

i

g

BEND AT DOTTED LINE. CAREFULLY PEEL J
UNTIL SILVER DECAL IS REMOVED .
IMPORTANT
:

I

DEPARTMENT OF THE TREASURY
•. «oa™ XXVC5 INTERNAL REVENUE SERVICE
CINCINNATI OH
45999-0023
Date of this notice:

04-07-2014

002023.432719.17129.5529 1 MB 0.435 530

Employer Identification Number:
98-6072644

|l|||.|l.l|lil||..l|I.||||.i|.|||l|i|||l|l|||i|..l|.|.||.jl|l.l(|

Form:

SS-4

Number of this notice:
iMOOR FOUNDATION!
SAKIMA IBAN SALIH EL BEY TTEE
1779 KIRBY PKWY STE 1-96
38138
GERMANTOWN TN
002023

CP 575 B

For assistance you may call us a*:
1-800-829-4933
IF YOU WRITE, ATTACH THE
STUB OF THIS NOTICE.

WE ASSIGNED YOU AN EMPLOYER IDENTIFICATION NUMBER
Thank you for applying for an Employer Identification Number (EIN). We assigned
you EIN 98-6072644. This EIN will identify your estate or trust. If you are not the
applicant, please contact the individual who is handling the estate or trust for you.
Please keep this notice in your permanent records.
When filing tax documents, payments, and related correspondence, it is very
important that you use your EIN and complete name and address exactly as shown above.
Any variation may cause a delay in processing, result in incorrect information in your
account, or even cause you to be assigned more than one EIN. If the information
is not correct as shown above, please make the correction using the attached tear-off
stub and return it to us.
Based on the information received from you or your representative, you must file
the following form(s) by the date(s) shown.
Form 1041

04/02/2014

After our review of your information, we have determined that you have not filed
tax returns for the above-mentioned tax period(s) dating as far back as 2005. Please
file your return(s) by 04-22-2014. If there is a balance due on the returnCs),
penalties and interest will continue to accumulate from the due date of the return(s)
until it is filed and paid. If you were not in business or did not hire any employees
for the tax oeriod(s) in question,' please -file the returnldJ ShbWing yoU ISSV&"“8
liabilities.
t™
If you have questions about the form(s) or the due dates(s) shown, you can call
us at the phone number or write to us at the address shown at the top of this notice.
If you need help in determining your annual accounting period (tax year), see
Publication 538, Accounting Periods and Methods.
We assigned you a tax classification based on information obtained from you or
your representative. . It is not a legal determination of your_tax classification
and is not binding on the IRS. If you want a legal determination of your tax
classification, you may request a private letter ruling from the IRS under the
guidelines in Revenue Procedure 2004-1, 2004-1 I.R.B. 1 (or superseding Revenue
Procedure for the year at issue). Note: Certain tax classification elections can
be requested by filing Form 8832, Entity Classification Election. See Form 6832
and its instructions for additional information.

CONCLUSION

The petition for rehearing for Extra Ordinary Writ for Writ of Mandamus should be
granted.

Respectfully submitted,

June 28, 2021

Sakima Iban Salih El Bey

1(q

